60 SHIP STREET

PROVIDENCE. RI 02803
(401) 272-4442 Ext. 212
-e je DIRECT DIAL: (401) 649-4299

ATTORNEYS AT LAW Fax: (401) 533-9848
MARC@DESISTOLAW.COM

Marc DESisTo

*Via Overnight Mail*
September 2, 2020

Hon. Scott S. Harris

Clerk of the Court

Supreme Court of the United States
| First Street, NE

Washington, DC 20543

Re: Request for Extension of Time to File Response to Petition in
Caniglia v. Strom, No. 20-157

Dear Mr. Harris,

Tam counsel for all respondents in this case, and a member of the Supreme Court bar. Petitioner
filed his petition for a writ of certiorari on August 10, 2020 and the matter was docketed on
August 13, 2020. According to the online docket and pursuant to Rule 15.3 of the Rules of the
Supreme Court of the United States, a response is currently due on September 14, 2020
Pursuant to Rule 30.4, respondents respectfully request that the time for filing a response be
extended by thirty (30) days, up to and including October 14, 2020.

This is respondents’ first request for an extension to file a response. Good cause exists for the
requested extension, in that one of the key authors of the briefs in both the District Court and
First Circuit has left the firm, and new counsel needs more time to become familiar with the
case. Further, the undersigned counsel has just been scheduled to present the first three jury
trials in the United States District Court for the District of Rhode Island Post-Covid and will
need additional time to attend to these matters. Finally, as respondents are municipal officials,
any response will need to be reviewed by municipal decision makers before filing.

Accordingly, respondents respectfully request that the time for filing a response to the petition
for writ of certiorari be extended by 30 days, up to and including October 14, 2020. Counsel for

the petitioner has been contacted and has informed the undersigned that they have no objection
to this request

Very truly yours,

Marc DeSisto, Esq.

cc: Shay Dvoretzky, Esq. via email
